No. 20-_____
IN THE

Supreme Court of the United States
CHRISTY, INC.,
v.
UNITED STATES,

Petitioner,

Respondent.

On Petition For A Writ Of Certiorari To The United States Court Of Appeals For The
Federal Circuit
AFFIDAVIT OF SERVICE
On January 21, 2021, I caused to be served the within Petition for a Writ of
Certiorari in the above-captioned matter, which was filed on this day using the
Court’s electronic filing system, upon:
Mr. Scott R. McIntosh (scott.mcintosh@usdoj.gov)
Mr. Gary Lee Hausken, Director (gary.hausken@usdoj.gov)
Civil Division, Appellate Staff – Room 7519
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
(202) 514-8100
Thomas W. Krause, Solicitor (thomas.krause@uspto.gov)
Sarah E. Craven, Associate Solicitor (Sarah.Craven@uspto.gov)
Michael S. Forman, Associate Solicitor (michael.forman@uspto.gov)
Office of the Solicitor
U.S. Patent and Trademark Office
Customer Service Window, Mail Stop 8
Randolph Building
401 Dulany Street
Alexandria, VA 22314
(571) 272-9035

by sending 3 copies of said Petition by courier service (Federal Express) to the
addresses listed above. An electronic copy was also served to the electronic mail
addresses listed. In addition, I caused a copy of said Petition to be sent to the Court
by courier service (Federal Express) along with a check for the associated filing fee.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 21st day of January, 2021

James F. McDonough, III
Counsel of Record

Petition For A Writ Of Certiorari

Christy, Inc. v. United States

